APPENDIX “A”
DENIAL OF COA BY THE FIFTH CIRCUIT COURT OF
APPEALS

Case: 19-30716

Document: 00515681905

Page: 1

Date Filed: 12/22/2020

®ntteJ) States Court of appeals
for the Jftftf) Circuit
No. 19-30716

Certified as a true copy and issued
as the mandate on Dec 22, 2020
Attest:

Jon Terrance Winzer,

W. OcuiCa

Clerk, U.S. Ofturt of Appeal, Fifth

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States E'istriet Court
for the Western District of Louisiana
No. 3:19-CV-658

ORDER:
Jon Winzer, Louisiana prisoner # 493559, was convicted of seconddegree murder and armed robbery. The district court dismissed his
28 U.S.C. 8 2254 petition as time-barred.
Winzer moves for a COA, for which he must make “a substantial
showing of the denial of a constitutional right, ” 28 U.S.C. 8 2253fcV2l:
Slack v. McDaniel, 529 U.S. 473,483-84 (2000) , Where, as here, the district
court denies habeas corpus relief on procedura 1 grounds, the movant must
demonstrate that reasonable jurists would find it debatable whether the
§ 2254 petition states a valid claim of the denial of a constitutional right and

Case: 19-30716

Document: 00515681905

Page: 2

Date Filed: 12/22/2020

No. 19-30716
whether the district court was correct in its procedural ruling, or that the
issue deserves encouragement to proceed further. Id.
Winzer has not challenged the district court’s determination that his
petition is time-barred; he has merely repeated the substantive arguments he
made in his § 2254 petition. Although pro se t fiefs are afforded liberal construction, even pro se litigants must brief argum ents to preserve them. Yohey
v. Collins, 93.5. F-2d 222, 224-25 (5th Cir. 1993). So Winzer has abandoned
the issue. See McGowen v. Thaler. 675 F.3d 481. 497 (5th Cir. 2012). To the
extent that Winzer’s argument can be liberally construed as asserting that his
actual innocence provides a gateway to present lis time-barred claims, he had
not established that he is entitled to a COA on t hat basis. See Slack. 529 U.S.
at 484.
The motion for a COA is DENIED.

-----------/s/ Terrv E. Smith
Jerry E. Smith
United States Circuit Judge
A True Copy
Certified order issued Nov 30, 2020
vJw(( W. QtMjOL

Clerk, U.S. Court of Ap peals, Fifth Circuit

2

APPENDIX “B”
DENIAL OF THE FEDERAL DISTRICT COURT WESTERN
DISTRICT

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
MONROE DIVISION
CIVIL ACTION NO. 19-0658

JONTERRANCE WINZER

SECTION P
VS.
JUDGE TERRY A. DOUGHTY
MAG. JUDGE KAREN L. HAYES

DARREL VANNOY

REPORT AND RECOMMENDATION
Petitioner JonTerrance Winzer, a prisoner in the custody of Louisiana’s Department of
Corrections proceeding pro se and in forma pauperis, filer i the instant Petition for Writ of Habeas
Corpus under 28 U.S.C. § 2254 on approximately May 22, 2019. Petitioner attacks his seconddegree murder and armed robbery convictions, as well as :he respective life and ninety-nine-year
concurrent sentences imposed by the Third Judicial Distri:t Court, Union Parish.1 For the
following reasons, the Court should deny the Petition as untimely.
Background
' On July 25, 2013, a jury found Petitioner guilty of second-degree murder and armed
robbery, [doc. # 1, p. 1]. Thereafter, the Third Judicial District Court, Union Parish, imposed a
life sentence for second degree murder and a concurrent n inety-nine-year sentence for armed
robbery. Id.
Petitioner appealed, claiming that the evidence introduced at trial was insufficient to
sustain his convictions, that the trial court failed to review his motion to quash and motion for a
i

continuance, that there was no probable cause to arrest him, that the prosecution withheld

l

This matter has been referred to the undersigned for review, report, and recommendation under
28 U.S.C. § 636 and the standing orders of the Court.

il

evidence, and that his trial counsel rendered ineffective ass istance. See State v. Winzer, 49,316
(La. App. 2 Cir. 10/8/14), 151 So. 3d 135, 148, writ deniec, 2014-2373 (La. 4/22/16), 191 So. 3d
1044. On October 8, 2014, the Louisiana Second Circuit Court of Appeal affirmed Petitioner's
convictions and sentences. Id.
On April 22, 2016, the Supreme Court of Louisians denied Petitioner's Application for
Writ of Certiorari and/or Review. State v. Winzer, 2014-2373 (La. 4/22/16), 191 So. 3d 1044.
Petitioner did not apply for certiorari before the United States Supreme Court, [doc. # 1, p. 4],
Petitioner filed an application for post-conviction relief on July 12, 2017.2 [doc. #s 1-2,
p. 2; 9-3, pp. 4-11]. On July 31, 2017, the trial court denied Petitioner's application, [doc. # 9-3,
p. 36],
On August 30, 2017, Petitioner filed a writ application before the Louisiana Second
Circuit Court of Appeal. Id. On November 15, 2017, the appellate court denied the application.
Id. The Supreme Court of Louisiana denied Petitioner's w rit application on January 28, 2019.
State v. Winzer, 2018-0203 (La. 1/28/19), 262 So. 3d 891.
Petitioner filed the instant proceeding on approxim ately May 22, 2019, claiming that: (1)
his appellate counsel rendered ineffective assistance; (2) his trial counsel rendered ineffective
■X

assistance; (3) there was no probable cause to arrest him; (4) the trial court failed to review, or
conduct a hearing on, his motion for a speedy trial, motion to quash, motion for change of venue,
and motion for a continuance; (5) he is actually innocent; (6) the State engaged in prosecutorial
misconduct; and (7) the evidence introduced at trial was ir sufficient to sustain his convictions.
[doc. #1-2],

2 Petitioner also maintains that he filed a "Motion to vacate illegal sentence" and a "Mandamus
motion to object to ruling of denial for mandamus." Id. at 3.
2

%

Law and Analysis
Title 28 U.S.C. § 2244(d)(1) provides a one-year st atute of limitations for filing habeas
corpus applications by persons in custody pursuant to the judgment of a state court. The
limitation period shall run from the latest of—
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed,
if the applicant was prevented from filing by sue! State action;
(C,) the date on which the constitutional right asserted was initially recognized
by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases nn collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1).
Here, with respect to subsection “C” above, Petitioner’s claims do not rely on a
constitutional right newly recognized by the United States Supreme Court and made retroactively
applicable to cases on collateral review. With respect to subsection “D,” Petitioner does not
contend that “the factual predicate of the claim or claims presented” were “discovered through
the exercise of due diligence” after the date on which his j udgment became final.
Petitioner does not mention subsection “B” or otherwise argue that he was impeded from
filing this Petition.3 Out of caution, though, the undersigned will examine subsection “B.”
Petitioner alleges that he filed a “shell petition” be tore this Court on January 30, 2019,

3 See Hebrard v. Day, 232 F.3d 208 (5th Cir." 2000) (“Hebrard does not argue that a state
impediment prevented him from timely filing a § 2254 petition.”); Hatcher v. Quarterman, 305
F. App'x 195, 196 (5th Cir. 2008) (finding that, because tie petitioner “did not allege that the
state habeas court created an ‘unconstitutional’ impediment that prevented him from timely filing
his federal habeas application^] ... the statutory exception in § 2244(d)(l)(B)-{did] not apply.”).
3

/.

■

r

V

requesting an extension of time in which to file his complete petition, [doc. # 1-2, pp. 2-3], The
requirements for the “statutory time-bar reset provision of § 2244(d)(1)(B).. . are
understandably steep.” Wickware v. Thaler, 404 F. App'x 856, 862 (5th Cir. 2010). To invoke
the “reset,” a petitioner “must show that: (1) he was prevented from filing a petition (2) by State
action (3) in violation of the Constitution or federal law.” Id.
Here, in the “shell petition,”4 Petitioner noted that “[h]e has access to the [sic] both the
law library and his legal material that has been missing,” thus suggesting that he once
encountered impediments to filing the instant Petition, [doc. # 13, p. 5]. Petitioner does not
specify the legal materials he lacked, who was responsible; for the impediment, when the
impediments began and ended, or the extent he was impe Jed. In fact, Petitioner suggests that,
as of January 30, 2019, he encountered no impediments. doc. # 13, p. 5].
Petitioner, ultimately, does not allege or maintain that the impediments he mentions were
“created by State action” or, even if they were, that the St ate action violated “the Constitution or
laws of the United States . . . .” 28 U.S.C. §2244(d)(l)(B\ Moreover, Petitioner does not
definitively contend that the presumed impediments preve nted him from filing this Petition.5
Consequently, the one-year period of limitation “r ms” from “the date on which the
judgment became final by the conclusion of direct review or the expiration of the time for
seeking such review . .. .” 28 U.S.C. § 2244(d)(1)(A).

4 Below, the undersigned discusses whether Petitioner file d the “shell petition.”
5 See Cardona v. Davis, 770 F. App'x 179, 184 (5th Cir. 2019) (examining 2244(d)(1)(B) and
concluding, “We find no error in the district court’s finding that Cardona’s thin account of what
was deficient.. . do[es] not establish official impediment, to his access to the courts for these 23
months.”); Parker v. Johnson, 220 F.3d 584 (5th Cir. 200)) (finding, where the petitioner argued
“that his alleged lack of access to legal materials . . . extended] the tolling period under 28
U.S.C. § 2244(d)(l)(B)[,]” that the petitioner did not show that “the State imposed an
unconstitutional impediment to the filing of his federal habeas petition .... ).
V. ,

4

On April 22, 2016, the Supreme Court of Louisiana denied Petitioner's Application for
Writ of Certiorari and/or Review. State v. Winzer, 2014-2:73 (La. 4/22/16), 191 So. 3d 1044.
Under United States Supreme Court Rule 13, “a petition fot a writ of certiorari to review a
judgment in any case, civil or criminal, entered by a state court of last resort... is timely when it
is filed with the Clerk of this Court within 90 days after entry of the judgment.” Here, Petitioner
did not apply for certiorari before the United States Supreme Court, [doc. # 1, p. 4]. Thus, the
trial court’s judgment became final on July 21, 2016, ninety days after the Supreme Court of
Louisiana denied Petitioner’s application.
Because Petitioner’s conviction became final on Ju.y 21, 2016, Petitioner had one year.
or until July 21, 2017, to file a federal habeas corpus petition. Petitioner did not file the instant
Petition until, at the earliest, May 21, 2019.6 Thus, the one-year limitation period bars
Petitioner’s claims unless Petitioner extended the July 21, 2017 deadline through statutory or
equitable tolling.
I. Statutory Tolling
The statutory tolling provision in 28 U.S.C. § 2244i 'd)(2) provides, “[t]he time during
which a properly filed application for State post-convictior or other collateral review ... is
pending shall not be counted toward any period of limitation . . . .” However, any lapse of time
before the proper filing of an application for post-convictic n relief in state court is counted
against the one-year limitations period, Flanagan v. Johnson, 154 F.3d 196, 199 n.l (5th Cir.
1998), and the limitations period is tolled only for as long as the state application remains
pending. Johnson v. Quarterman, 483 F.3d 278, 285 (5th Cir. 2007).

6 Petitioner signed his memorandum in support of his Petit on on May 21, 2019. [doc. # 1-2, p.
35].
5

Here, Petitioner filed an application for post-conviction relief on July 12, 2017. [doc. #s
1-2, p. 2; 9-3, pp. 4-11], Thus, 356 days elapsed, from the time Petitioner’s conviction became
final to the time Petitioner filed his application for post-co eviction relief before the state trial
court. On July 31, 2017, the trial court denied Petitioner's application. Id. On November 15,
2017, the appellate court denied the application. Id. The Supreme Court of Louisiana denied
Petitioner's writ application on January 28, 2019. State v. Winzer, 2018-0203 (La. 1/28/19), 262
So. 3d 891.
Petitioner had 9 days following the Supreme Court of Louisiana’s denial on January 28,
2019, to file the instant Petition before the 1-year period o r limitation expired. Petitioner,
however, allowed 113 days to elapse, following the Supreme Court of Louisiana’s denial, before
he filed the instant Petition, at the earliest, on May 21,201 9.
Accordingly, the instant Petition is untimely and should be dismissed absent rare and
exceptional circumstances.
II. Equitable Tolling
The one-year statute of limitations can, in rare and exceptional circumstances, be
equitably tolled. See Davis v. Johnson, 158 F.3d 806, 811 (5th Cir. 1998). Equitable tolling
“applies principally where the plaintiff is actively misled by the defendant about the cause of
action or is prevented in some extraordinary way from assorting his rights.” U.S. v. Wheaten,
826 F.3d 843, 851 (5th Cir. 2016). “A petitioner’s failure to satisfy the statute of limitations
must result from external factors beyond his control; delays of the petitioner’s own making do
not qualify.” In re Wilson, 442 F.3d 872, 875 (5th Cir. 2006). “To be entitled to equitable
tolling, [the petitioner] must show ‘(1) that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way’ and prevented timely filing.” Lawrence v.

6

Fla., 549 U.S. 327, 336 (2007) (quoting Pace v. DiGugliel.no, 544 U.S. 408, 418 (2005)).
Here, Petitioner does not ask the Court to equitably toll the one-year period of limitation.
However, as noted, Petitioner alleges that he filed a “shell petition” before this Court on January
30, 2019, requesting an extension of time in which to file his complete petition, [doc. # 1-2, pp.
2-3]. In the undated “shell petition,” he wrote:
Petitioner request that he be provided 120 days extension to perfect his habeas
Corpus relief. Petitioner request that he is presently housed at Louisiana State
Prison Camp C. He has access to the both the law library and his legal material
that has been missing. Petitioner request within the next 120 days will allow him
to perfect his habeas Corpus, [sic].
Id. To reiterate, Petitioner did not specify the legal materials he lacked, who was responsible for
the impediment, when the impediments began and ended, or the extent he was impeded.
For several reasons, Petitioner’s “shell petition” doss not equitably toll the period of
limitation.
i. Evidence of Filing
First, Petitioner provides no evidence, other than his sworn statement, demonstrating that
he filed the “shell petition.” Petitioner claims that he filed it on January 30, 2019. However, the
undersigned thoroughly searched filings in all federal district courts and did not locate
Petitioner’s “shell petition.”
On April 25, 2019, Petitioner filed a letter, in which he requested “a status check on
. motion for extension that was submitted to your Court on i anuary 30, 2019.” In Re Jon
Terrance Winzer, 3:19-mc-0028 (W.D. La. 2019). The Clerk of Court docketed the letter in a
new, miscellaneous proceeding and then returned the letter to Petitioner, writing:
On April 25, 2019, the Monroe Division of the Clerk’s Office for the Western
District of Louisiana received the attached document. After review, it is being
returned to you since your submission does not indicate in which case it is to be
filed or it includes an incorrect case number. Ws are unable to determine the
7

Y

case number from our records. If the document was intended to be filed in a
particular case in this court, please resubmit the documents bearing the
appropriate case number.
Id. at doc. 2. Petitioner responded: “Case History: 3rd Judi cial District # 48, 447, 2nd Cir. Court
# KH-17-51971, Supreme Court # 2018-KH-0203.” Id. at doc. 3. Petitioner was presumably
referencing his state court proceedings. The Clerk of Cour: returned Petitioner’s response,
issuing the same reply set forth above. Id. at 4.
It appears that Petitioner either: (1) mistakenly thought he filed a motion for an extension
before this Court on January 30, 2019; (2) mailed his motion, but the motion was misplaced
before it reached this Court; or (3) considering his state cot irt citations, filed his motion before a
state court.
On July 26, 2019, following the undersigned’s order to provide a copy of the “shell
petition” or other evidence demonstrating that he mailed, delivered to prison officials for
mailing, or otherwise filed the “shell petition,” Petitioner submitted an “Offender Withdrawal
Request,” which reveals that, on January 25, 2019, he withdrew $1.00 to mail an item. [doc. #
13, p. 10]. The filing does not demonstrate that Petitioner :hen mailed a document to this Court
or, if he did, that he mailed the “shell petition.” Id.
ii. Case or Controversy
Petitioner submits a sworn statement that he filed the “shell petition” on January 30,
2019, requesting an extension of time. [doc. #13, pp. 4-8] Even assuming Petitioner filed the
“shell petition,” he did not toll the period of limitation because the “shell petition” is not a
petition. Rather, it is a motion for extension of time in whi ch to file a petition.
The Court may not extend the Congressionally-created statute of limitation at a litigant’s

8

request. Rather, as explained above, the Court may only tc if—statutorily or equitably—the
statute of limitation.
More important, and again assuming Petitioner filed the “shell petition” on January 30,
2019, he did not present a “case or controversy” under Article III of the United States
<r

■'

-

Constitution.
“It is, however, elementary that, as a predicate to ary action before a federal court, parties
must establish that they have proper standing to raise a claim. In the absence of a party with
sufficient interest, the constitutional limitation of federal court jurisdiction to ‘cases or
controversies’ would prevent a federal court from consider ng the matter. Standing, therefore, is
literally a threshold question for entry into a federal court, limiting the exercise of its jurisdiction,
and the court must consider the standing of any party even if the issue has not been raised by the
parties to the action.” United States v. One 18th Century Colombian Monstrance, 797 F.2d
1370, 1374 (5th Cir. 1986) (internal footnotes removed).
Here, Petitioner attempted to initiate a proceeding by filing a motion for an extension of
time. He did not present claims or assignments of error, he did not identify a respondent, he did
not identify the state court that convicted him, and he did nat seek any relief. See Rule 2 of the
Rules Governing Section 2254 Cases (mandating that a petitioner must name a respondent,
specify grounds for relief, state the facts supporting each ground, and, inter alia, state the relief
requested); 28 U.S.C. § 2242 (“Application for a writ of habeas corpus shall. . . allege the facts
concerning the applicant's commitment or detention, the name of the person who has custody
over him and by virtue of what claim or authority, if known.”).

7 See Black's Law Dictionary (11th ed. 2019) (defining toll: “to stop the running of; to
abate.”).

9

In his motion, Petitioner essentially asked the Cour: for an advisory opinion concerning
whether the statutory period of limitation would bar a petit ion that he may (or may not) file or
whether the Court would equitably toll the period of limita tion on a petition yet to be filed. See
United States v. Cook, 795 F.2d 987, 994 (Fed. Cir. 1986) [concluding that a district court’s
order tolling the statute of limitations was premature becar se it affected persons who had not
filed claims); Wawak v. Johnson, 2001 WL 194974, at *1 ( N.D. Tex. Feb. 22, 2001), report and
recommendation adopted, 2001 WL 290526 (N.D. Tex. Mar. 21, 2001).
“[A] federal court has neither the power to render advisory opinions nor ‘to decide
questions that cannot affect the rights of litigants in the case before them.’ Its judgments must
resolve ‘a real and substantial controversy admitting of specific relief through a decree of a
conclusive character, as distinguished from an opinion advising what the law would be upon a
hypothetical state of facts.’” Preiser v. Newkirk, 422 U.S. 395, 401 (1975) (quoting North
Carolina v. Rice, 404 U.S. 244, 246 (1971)). “Federal codrts may not give opinions upon moot
questions or abstract propositions.” Karaha Bodas Co. v. Perusahaan Pertambangan Minyak
Dan Gas Bumi Negara, 335 F.3d 357, 365 (5th Cir. 2003) (internal quotation marks and quoted
source omitted).
Here, because Petitioner’s alleged “shell petition” was not a petition at all and thus did
not present a case or controversy, it did not equitably toll ttie one-year period of limitation. See
Miller v. Quarterman, 2007 WL 2890270, at *2 (N.D. Tex. Sept. 27, 2007) (“ Insofar as
Petitioner requests an extension of the one-year statute of limitations ... his motion fails to
present a case or controversy.. . . There is no statutory or case authority that allows a federal
district court to issue a premature order staying the one-year limitations period before a § 2254
petition is filed”); United States v. Leon, 203 F.3d 162, 164 (2d Cir. 2000) (“[W]e hold—as

10

every other court to consider the question thus far has held—that a federal court lacks
jurisdiction to consider the timeliness of a § 2255 petition until a petition is actually filed.”);
Bryan v. Dretke, 2006 WL 1004268, at *1 (N.D. Tex. Apr. 14, 2006).
iii. Extraordinary Circumstances
Finally, even assuming that Petitioner filed the “shell petition,” that the “shell petition”
was an actual petition, and that Petitioner presented a case or controversy, Petitioner does not
present rare and exceptional circumstances. Rare and exceptional circumstances can exist when
a petitioner is “actively misled by the defendant about the cause of action or is prevented in some
extraordinary way from asserting his rights.” Felder v. Jot inson, 204 F.3d 168, 171 (5th Cir.
2000) (quotation marks and quoted source omitted).
In his “shell petition,” Petitioner mentioned, almost as an afterthought, that as of January
30, 2019, he had access to both a law library and his once-missing legal material, [doc. # 13].
These cursory remarks do not reflect rare and exceptional circumstances. Petitioner did not
indicate, for instance, why he lacked legal materials, which legal materials he lacked, how long
he lacked legal materials, why he required access to the law library, when he gained access to the
law library, or whether the alleged deprivations prevented him from asserting his rights.
Moreover, Petitioner did not indicate that respondents actively misled him or prevented him in
some extraordinary way from asserting his rights. 8

8

See Walck v. Johnson, 213 F.3d 638 (5th Cir. 2000) (finc ing that the petitioner did not present
rare and exceptional circumstances because the petitioner was “inconsistent with the dates he
was denied access to his legal material[,] he [did] not state why he needed his materials to file his
federal habeas petition[,] and he [did] not indicate that he was restrained or prevented from filing
within the limitations period.”); Caldwell v. Dretke, 182 F App'x 346, 347 (5th Cir. 2006)
(finding that the district court did not abuse its discretion i i denying equitable tolling where the
petitioner did not provide “specific evidence of the impact of his medical conditions on his
ability to file a timely application [or of] the lack of evidence regarding why certain documents
were necessary to the preparation of his application . . . .”); Tate v. Parker, 439 F. App'x 375,
11

n

Even assuming Petitioner presented extraordinary c ircumstances, Petitioner did not
diligently pursue his rights: he waited 356 days, after his conviction became final, to file his
application for post-conviction relief before the trial court. See Webb v. Dretke, 165 F. App'x
375, 376 (5th Cir. 2006) (holding that the petitioner did not diligently pursue his rights because
he “did not seek post-conviction relief until 11 months after his conviction had become final”
and offered “no explanation for his delay other than his co iclusional allegation that he is a pro se
litigant with limited resources.”).
Accordingly, this Petition is time-barred under 28 1J.S.C. § 2244(d)(1)(A), unless
Petitioner demonstrates a fundamental miscarriage of justice.
III. Fundamental Miscarriage of Justice
In one of his assignments of error, Petitioner argues that two affidavits from his brother,
Lonnele Shelton, which are dated approximately three yea-s after his conviction, demonstrate
that he is actually innocent, [doc. # 1-2, p. 26].
The Louisiana Second Circuit Court of Appeal summarized the events surrounding
Petitioner’s crimes thusly:
On the afternoon of April 26, 2011, police were dispatched to the home of
Johnny Ray Simmons in the Sensley's Townhouses in Farmerville, Louisiana.
376 (5th Cir. 2011) (finding that “ignorance of the law, lack of knowledge of filing deadlines, a
claim of actual innocence, temporary denial of access to re search materials or the law library,
and inadequacies in the prison law library, are not sufficient to warrant equitable tolling.”);
Krause v. Thaler, 637 F.3d 558, 561 (5th Cir. 2011) (“Krause only alleges that the library at the
transfer facility was inadequate. He does not at any point allege facts as to why the transfer
facility's lack of legal materials prevented him from filing a timely habeas application.”);
Hatcher v. Quarterman, 305 F. App'x 195, 196 (5th Cir. 2308) (“Hatcher has not shown that not
having possession of his trial counsel's file prevented him from filing his application, as opposed
to proving his claims.”).
9 «4

Even when a petitioner demonstrates ‘rare and exceptional circumstances’ for missing the
federal habeas deadline, he also must have pursued his claims diligently to justify equitable
tolling of the statute of limitations.” Hill v. Johnson, 265 iL3d 1059 (5th Cir. 2001).
12

Upon their entrance into Apartment 26, police discovered the body of Romon
Johnson, who had been shot multiple times. Police investigation revealed the
Johnson had been shot as he sold one-half pound of marijuana to Simmons and
Nicholas Higgins. It was also learned that 24-year-old Jonterrance Winzer, his
16-year-old brother, Lonnele Shelton, and Meagan Ward had spent the previous
night at Simmons' apartment and were present during, but not privy to, the sale.
Simmons' girlfriend, Ladrina Gray, her niece, Gerreal Gray, and Simmons' ninemonth old daughter were also in the apartment at the time of the shooting.
Police ascertained that Winzer and Simmons were childhood friends. On April
25, after a chance meeting with Simmons, Winzer came by his friend's apartment
with his girlfriend and little brother and played dominoes late into the evening.
The three ultimately spent the night at Simmons' home.
Police questioned all individuals present in the apartment at the time of the
shooting. Those interviews resulted in Winzer and his brother being implicated
as the shooters. Arrest warrants were issued for the two brothers who were
ultimately apprehended and arrested in Oklahoma City, Oklahoma.
Winzer, 151 So. 3d at 138.
In his direct appeal, Petitioner argued that the evidence presented at trial did not
sufficiently establish that he shot the victim. Id. The Second Circuit summarized the evidence
as follows:
Dr. Peretti testified that Johnson suffered from th ee gunshot wounds: one to his
right eyelid, one in the back of his neck, and one to his right cheek. In Dr.
Peretti's opinion, the right eyelid wound was t ie fatal shot. He recovered a
“small-caliber, non-jacketed bullets, .22's.”
Both Simmons and Higgins testified. Simmons testified that he and Winzer grew
up together. The two had seen each other the day before the incident and Winzer,
Ward and Shelton spent the night at his apartment. On the morning of the
incident, Higgins called Simmons to set up a purchase of marijuana with an
individual named Johnson, whom Simmons did not know. Simmons recalled
that in the late morning, Gerreal Gray arrived at the apartment after getting out
of school. She was the niece of Simmons' girlfriend, Ladrina Gray, who also
lived in the apartment with the couple's nine-month old baby. Higgins also
arrived.
Near lunchtime, Simmons, Winzer, Shelton anc Higgins left the residence to
obtain food for everyone. Upon their return, Simmons testified that he and
Higgins discussed the marijuana purchase and pooled $310. Simmons stated that
although the two were originally going to Johnson's residence, ultimately
13

Johnson came to Simmons' home. After entering the apartment, Johnson went
to the kitchen to join Simmons and Higgins. According to Simmons, it was
Higgins who gave Johnson the money for the one-half pound of marijuana
contained in a plastic bag. As Johnson counted the money, Simmons smelled the
“weed” to “see what grade I got.” Simmons claimed that immediately after the
sale, he went to the bathroom and closed the c oor. As he came out of the
bathroom, Simmons saw Shelton standing in front of the dishwasher in the
kitchen. Simmons observed “[Shelton's] hand up and I saw him with the pistol
and he shot. That's when he shot [Johnson].”
Simmons stated that Shelton shot Johnson from behind. He saw the victim fall
to the ground. Simmons testified that he went bac k into the bathroom “soon as
he shot [Johnson].” Simmons testified that after he went back into the bathroom,
he heard “scuffling and stuff going on.” He peeked out of the door and saw
“Winzer, Shelton and Higgins by the front door.” Simmons testified that he
guessed “they were jumping on him at the time.” He heard another shot and then
everything “calmed down.” Simmons testified that he “looked back out” and
saw Shelton and Higgins “moving toward the table part.” As Simmons left the
bathroom and ran upstairs, he saw Winzer “pickin i up the money.” Although he
only “caught a glimpse” of Winzer, he was “arm distance” from him and “went
right by him” as he ran up the stairs. Simmons recalled that he heard what
sounded “like two more gun shots” while ups:airs. Simmons also recalled
hearing a knock at the front door and “running up my steps.” He feared for the
safety of his girlfriend and daughter and came out of the bedroom. He saw
Higgins, Shelton and Winzer “running out the door at the time.” Simmons stated
that he then came downstairs and opened the screen door for police. He saw
Johnson “laying down there,” and the bag of money and marijuana were gone.
On cross-examination, Simmons admitted that he pled guilty to accessory after
the fact to second degree murder and armed robbery. He also acknowledged that
he initially told the police he was upstairs the en ire time and did not see who
shot Johnson but later gave a second statement in which he admitted being
downstairs. He also stated that Winzer and Shelton had no part of the marijuana
sale.
Higgins testified that after he got out of classes about 11:15 a.m. on April 26,
2011, he walked to Simmons' apartment. When lie got there, he and Simmons
“started negotiating about some marijuana” they were going to buy from
Higgins' friend Johnson. Higgins corroborated that he, Simmons, Winzer and
Shelton got food for everyone in the apartment. T ley traveled in Winzer's black
truck. He testified that he had never seen Winzer Dr Shelton before that day. He
also stated that as they ate lunch, he and Simmons discussed the drug deal in the
kitchen, As they did so, Johnson called Higgins aid told him lie was on his way
to Simmons' apartment. When Johnson knocked on the door, Higgins let him in
and the two walked into the kitchen area. According to Higgins, Johnson pulled
out the seven ounces of marijuana packaged in a plastic bag. Johnson placed the
14

I)

marijuana on the counter and Higgins gave him the money. Higgins testified that
as Johnson counted the money, Shelton came behind him and shot him once.
Johnson fell down and Higgins “went up to Lonnele Shelton,” and “tried to take
the gun from him.”
Higgins testified that as the two were “wrestling over the gun,” he “slipped
down” and Winzer “came over there with a mop stick,” and “started beating me
with it.” Higgins recalled that the three were in the kitchen entrance during these
events. Higgins testified that Winzer pulled him toward the kitchen area and
Shelton “came through and hit me with the gur.” Shelton told Higgins to be
quiet and not move. Eventually Shelton made him “get up and move” near a
table. Higgins testified that Shelton held him at gunpoint. During these events,
Higgins heard Winzer state, “he's still moving.” Higgins stated that he saw
Winzer get “the gun from his brother,” and “went and shot [Romon Johnson]
two more times.” Shelton remained in Higgins' “eyesight” and stated he knew
Shelton did not shoot Johnson. He did not see where Winzer shot Johnson.
Higgins testified that after Winzer shot Johnson, “he gave the gun back to his
little brother, Lonnele Shelton.” Shelton held Higgins at gunpoint, “talking about
what he going to do with me.” Higgins recalled seeing Shelton picking up the
money, but he did not see anyone pick up the marijuana. Higgins remembered
that the two brothers discussed what they were gcing to do with Johnson's body.
Higgins testified that someone came to the front door and Winzer and Shelton
ran upstairs. It was then that Higgins ran outside and informed Johnson's family
that he had been shot. He went back to Simmons' apartment with Johnson's
brother and mother. When he got back to the apartment, Winzer, Shelton and
Warden were gone. The money and marijuana were also gone. Higgins suffered
a nose injury and swelling from being hit with tha gun and broom handle.
On cross-examination, Higgins admitted that he initially told police that after
the first shot, he blacked out. He explained that he meant he was “scared a lot,”
by seeing “somebody die right in front of your iyes.” He did not believe that
those feelings affected what he saw. Higgins almitted that in 2012, he pled
guilty to attempted possession of marijuana.
Gearrel Gray testified that she was in the apartment at the time of the incident.
She recalled that as she entered the apartment, Wi izer, Shelton and Warden were
seated at a table. Higgins also arrived at the apartment about five minutes after
she got there. Gray testified that she ate her lunc 1 on a small couch. She stated
that Higgins was in the kitchen “counting money” and she heard him “call
somebody up on the phone telling him how to get to the apartment.” Johnson
came to the apartment and went into the kitchen with Higgins. She heard and
saw nothing of what transpired between the two men until she heard two
gunshots “back towards the kitchen.” She got b ihind the couch and observed
what she saw by looking around the couch. Gray did not see who fired the shots,
but turned around to see “the younger one” figh ing Higgins. She thought that
15

Higgins was “trying to fight the gun out his hand while he's beating him up.”
Gray testified that she heard Shelton tell Higgins that he talked too much.
Higgins was “hollering and kicking both of them ” After that she heard two or
three more gunshots and Shelton instruct Winzer lo “get the money.” Gray also
heard Shelton and Winzer discuss where they were going to take the body. Gray
testified that she never saw a gun. She stated that when somebody knocked on
the door, Shelton and Winzer ran upstairs and Higgins ran out of the house.
Thereafter, Gray stated that Shelton and Winzer also ran out of the house with
Warden.10
On cross-examination, Gray confirmed that she did not see who fired the two
gunshots and did not see any marijuana or money
Warden corroborated the events leading up to the shooting. She witnessed
Johnson enter the apartment and go into the kitchen. She saw only Higgins in
the kitchen with Johnson and did not hear anything they said. She “knew what
they were doing” but did not see marijuana or money. Warden testified that
Higgins and Johnson were standing very close to one another. As she sat at the
dining room table eating, Warden heard gunsho:s; she did not see who fired
them. According to Warden, at the time of the g unshots, Winzer and Shelton
were standing “around the kitchen door area.” Johnson was “around the counter
part.” After she heard the shot, Warden got down on the floor in front of the
large couch. She then heard “tussling, the moving around.” Warden testified that
it was “Jonterrance and Lonnele and Nick” involved in the tussling around the
front door area. Warden stated that the three “wound up at the table that I was
originally sitting at.” Higgins was on one side and Winzer and Shelton were on
the other. She heard somebody yelling at Higgins to “shut up and sit down.”
Warden recalled Winzer saying that “he's still moving,” and then she heard more
gunshots. She did not see who fired the shots. She saw Shelton holding a very
small handgun toward Higgins. She had seen W: nzer holding the gun prior to
that day. Warden testified that she heard Winzer and Shelton “trying to figure
out what to do with the body.” Warden recalled hat Winzer and Shelton went
“upstairs for a while,” when there was a knock at the door. At that time, Higgins
“ran out the door.” Winzer and Shelton then came downstairs and yelled at her
to follow them. The three got into the truck and Winzer drove. Warden sat in the
passenger seat and Shelton was in the back. The three traveled toward Bernice,
Louisiana, and made a detour on a dirt road. Warden heard Shelton and Winzer
discuss what happened. Winzer said that Johnson “must've had an angel
watching over him because it took more than one shot.” Warden saw that Winzer
had money “popping out his pocket.” She had given him $20 or $30 the night

10 JaMarkus Hamilton testified that as he rang Simmons' dborbell on April 26, 2011, Higgins ran
out telling them to go; Higgins' lip was bloody. Hamilton and another man hid behind the
building and saw two males and a female exit the apartment. He was not able to identify Winzer
as
of those males. Hamilton further testified that the three individuals got into a black truck
and headed west after backing into the building and damaging the bumper.
16

1

H
before; she did not know how much he had left. iVinzer and Shelton discussed
the fact that Shelton had “missed Nick.” The broth ers dropped Warden off at her
apailment; this was the last time she saw either of them.
On cross-examination, Warden testified that sh<| did not “really” change her
statements to police, although she “added some that I didn't say the very first
time.” She admitted pleading guilty to accessory after the fact to second degree
murder, armed robbery and resisting an officer, and was awaiting sentencing,
Warden admitted that the only person she saw with a gun in his hand was
Shelton.
Police testimony showed that the Farmerville Police Department was dispatched
to Simmons' apartment around 2:00 p.m. The scene was photographed and
evidence collected, but no money, handguns or marijuana were found, except a
small bag of marijuana recovered from a drawer in the kitchen. The black truck
was later found and searched but it did not contain the gun, the marijuana or the
money. Police received an anonymous tip that Winzer and Shelton were possibly
in Oklahoma City, where they were subsequently arrested and extradited to
Louisiana.
Winzer invoked his Fifth Amendment right to not testify. The defense did not
present any witnesses.
Id. (footnotes in original).
Here, Lonnele Shelton first avers:
JonTerrance Winzer didn’t know what was going to happen. Johnny Simmons
told me to shoot Raymond Johnson “we we.” That was Johnny Simmons gun.
I gave Johnny Simmons the money, weed & the gun & when Gearral “Ge Ge”
Gray left the scene of the crime with her mother Courtney Gray they left to hide
the drugs money & gun. JonTerrance Winzer c idn’t know this was going to
happen & I don’t believe that JonTerrance Winzer knew what happen to the
evidence from the crime scene, [sic].
[doc. # 8, p. 115]. In another affidavit, Shelton avers:
On April 26,2011,1 Lonnele Jamal Shelton B/M DOB 12/18/94, did shoot and
kill Ra’mon Johnson, inflicting three (3) shots from a .22 caliber belonging to
Johnny Simmons to Johnson’s neck, right cheek, and right eye. I Lonnel Jamal
Shelton clarify that my brother, JonTerrance did r ot know that Johnny Simmons
told me to kill Ra’mon Johnson and to give him the marijuana and gun so he
could make his extra money from the marijuana sales profits. I Lonnel Jamal
Shelton, also admits that I robbed Johnson for the $210. It was not $310 like the
witnesses testified as. [sic].

17

A

Accordingly, Petitioner has not established a “crec ible gateway claim” sufficient to
overcome the one-year period of limitation.
Conclusion
For the reasons above, IT IS RECOMMENDED that Petitioner JonTerrance Winzer’s
Petition for Writ of Habeas Corpus, [doc. # 1], be DENIIiD and DISMISSED WITH
PREJUDICE as time-barred under 28 U.S.C. § 2244(d).
By this Report and Recommendation, the Court notifies Petitioner that his claims
are

subject to dismissal as untimely under the one-year period of limitation and that the

undersigned is recommending dismissal without ordering Respondents to answer.
Petitioner mav raise any arguments, or present any_e vidence, against dismissal during the
fnnrtPPn-dav objection period described below^
Under the provisions of 28 U.S.C. § 636(b)(1)(C) and Rule 72(b), parties aggrieved by
this Report and Recommendation have fourteen (14) dsys from service of this Report and
Recommendation to file specific, written objections witl i the Clerk of Court. A party may
respond to another party’s objections within fourteen (|4) days after being served with a copy
of any objections or response to the District Judge at the time of filing. A courtesy copy of any
objection or response or request for extension of time s hall be furnished to the District Judge at
the time of filing. Timely objections will be considered by the District Judge before the Judge
makes a final ruling.
A PARTY’S FAILURE TO FILE WRITTEN OBJECTIONS TO THE PROPOSED

federal district court applies
,,".1,,..
.1,
......... LI,
M- ------------------dismissal, and whether the state has intentionally waived the defense. ).
21

"

FINDINGS, CONCLUSIONS AND RECOMMENDATIONS CONTAINED IN THIS
REPORT WITHIN FOURTEEN (14) DAYS FROM THE DATE OF ITS SERVICE
SHALL BAR AN AGGRIEVED PARTY, EXCEPT ON GROUNDS OF PLAIN ERROR,
FROM ATTACKING ON APPEAL THE UNOBJFCTED-TO PROPOSED FACTUAL
FINDINGS AND LEGAL CONCLUSIONS ACCEPTED BY THE DISTRICT JUDGE.
Pursuant to Rule 11(a) of the Rules Governing (Section 2254 Cases in the United States
District Courts, this Court must issue or deny a certific ite of appealability when it enters a final
order adverse to the applicant. Unless a Circuit Justice or District Judge issues a certificate of
appealability, an appeal may not be taken to the court c f appeals. Within fourteen (14) days
from service of this Report and Recommendation, t le parties may file a memorandum
setting forth arguments on whether a certificate of appealability should issue. See 28 U.S.C.
§ 2253(c)(2). A courtesy copy of the memorandum shall be provided to the District Judge
at the time of filing.
In Chambers, Monroe, Louisiana, this 6th day of August, 2019.

Karen L. Hayes
| 1
United States Magistrate Ju\j1

22

APPENDIX “C
STATE V WINZER 2014-2373 (LA. 4/22/16)

APPENDIX “C'
STATE V WINZER 2014-2373 (LA. 4/22/16)

PETITIONER DOES NOT HAVE APPENDIX “C” AND LAW
LIBRARY AT LOUISIANA STATE PENITENTIARY CAMP C
WEST LAW IS OFF LINE.

BECAUSE OF COVID-19

OFFENDER COUNSEL CANNOT OBTAIN A COPY. I HAVE
PROVIDED THE DOCKET NUMBER.

Mr. Jon Terrance Winz^r #493559 pro-se
Camp C Bern- 3
Louisiana State Penitentiary
Angola, La 70712

APPENDIX “D”
STATE V WINZER. 151 SO 3D 135

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

WESTLAW
State v. Winzer
Court of Appeal of Louisiana, Second Circuit, i October 8, 2014 j 151 So.3d 135 i 49,316 (La.App. 2 Cir. 10/8/14) (Approx. 20 pages)

151 So.3d 135
Court of Appeal of Louisiana,
Second Circuit.

STATE of Louisiana, Appellee
v.

Jonterrance WINZER, Appellant.
No. 49,316-KA.
Oct. 8,2014.
Synopsis
Background: Following denial of his motions to quash and obtain continuances, defendant
was convicted in the District Court, Parish of Union, R. Wayne Smith, J., of second degree
murder and armed robbery. He appealed.

Holdings: The Court of Appeal, Caraway, J., held that:
1 evidence was sufficient to support defendant's convictions;
2 defendant's motion to quash indictment was waived;
3 denial of defendant's request for continuance was not abuse of discretion;
4 defendant was precluded from raising assignment of error that there was insufficient
probable cause to issue arrest warrant;
5 State did not violate Brady, and
6 defendant was not denied effective assistance of counsel.
Affirmed.
West Headnotes (27)
Change View
1

Criminal Law
Weight and conclusiveness in general
“Direct evidence” provides proof of the existence of a fact, for example, a
witness's testimony that he saw or heard something.

2

Circumstantial Evidence
Criminal Law
“Circumstantial evidence” provides proof of collateral facts and circumstances,
from which the existence of the main fact may be inferred according to reason
and common experience.

3

Homicide G3* Intent or mens rea
Specific intent to kill can be inferred from the intentional use of a deadly weapon
such as a knife or a gun. LSA-R.S. 14:30.1 (A)(1).

4

Criminal Law 0s3 Effect of impeachment
When a witness is impeached, the jury, as the trier of fact, is presented with
evidence it may consider and weigh in determining the credibility, or believability
of the witness.

5

Criminal Law Q23 Effect of impeachment
Simply because the witness may have been impeached by prior inconsistent
statements does riot mean that the jury is prohibited from believing anything said
by the witness; the inconsistencies in the witness's statements are one of any

1 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

number of factors the jury weighs in determining whether or not to believe a
witness's trial testimony.

6

Criminal Law O'3 Credibility of witnesses in general
In the absence of internal contradiction or irreconcilable conflict with physical
evidence, one witness's testimony, if believed by the trier of fact, is sufficient
support for a requisite factual conclusion.

7

Homicide O33 Second degree murder
Evidence was sufficient to support defendant's conviction for second-degree
murder, even though witnesses' testimony contained minor inconsistencies; jury
was made aware of inconsistencies, and witness testified that defendant grabbed
gun from his brother and shot in direction of victim's body after commenting that
victim was still moving. LSA-R.S. 14:30.1 (A)(1).

8

Robbery £~ First degree; armed robbery
Evidence was sufficient to support defendant's conviction for armed robbery at
scene of drug transaction, even though witnesses' testimony contained minor
inconsistencies; jury was made aware of inconsistencies, and witness testified
that defendant picked up money involved in drug transaction, which was
corroborated by second witness’s testimony that defendant left the scene with
money hanging out of his pockets. LSA-R.S. 14:64.
1 Case that cites this headnote

9

Criminal Law C33 Principals, Aiders, Abettors, and Accomplices in General
Those persons who knowingly participate in the planning or execution of a crime
are "principals."

10

Indictments and Charging Instruments C535 Motion to quash or set aside in
general
Defendant's pro se, pre-trial motion to quash murder indictment was waived
where defendant proceeded to trial with counsel without raising issue that the
motion had not been ruled upon.
2 Cases that cite this headnote

11

Criminal Law (r* Motions
Motions pending at the commencement of trial are waived when the defendant
proceeds to trial without raising the issue that the motions were not ruled upon.
1 Case that cites this headnote

12

Criminal Law 6s3, Defendant filing pro se motions while represented by
counsel
A trial court is not required to entertain motions filed by a defendant who is
represented by counsel; while an indigent defendant has a right to counsel as
well as the opposite right to represent himself, he has no constitutional right to be
both represented and representative. U.S.C.A. Const.Amend. 6.
2 Cases that cite this headnote

13

Criminal Law

Want of time for preparation by counsel

Trial court did not abuse its discretion when it denied murder defendant’s request
for continuance; the court reviewed the discovery responses and concluded that
they were not so voluminous or substantial that counsel would be unable to
adequately prepare for trial. LSA-C.Cr.P. art. 712.

2 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

Criminal Law
14

Time for trial or hearing; continuance

Even when an abuse of discretion is shown, a conviction will not be reversed
based upon the denial of a continuance absent a showing of specific prejudice.
LSA-C.Cr.P. art. 712.

15

Criminal Law €ra' Sufficiency and Scope of Motion
Criminal Law

Necessity of ruling on objection or motion

Defendant was precluded from raising assignment of error that there was
insufficient probable cause to issue arrest warrant based upon inconsistent
testimony; issue was waived when defendant proceeded to trial without calling
attention to lack of ruling on his motion to quash, and in his motion to quash, he
argued that the arrest was illegal due to racism and prejudice. U.S.C.A.
Const.Amend. 4; LSA-C.Cr.P. art. 841.

16

Criminal Law
Necessity of Objections in General
A new ground for objection cannot be presented for the first time on appeal. LSAC.Cr.P. art. 841.

17

Criminal Law
Disclosure of Information
When the defendant requests it, the state must produce evidence that is
favorable to the accused, if that evidence is material to guilt or innocence.
1 Case that cites this headnote

18

Criminal Law £?» Impeaching evidence
Rule that the state must produce evidence that is favorable to the accused, if
requested, applies to evidence which impeaches the testimony of a witness when
the credibility of that witness may be determinative of guilt or innocence.

19

Criminal Law
Impeaching evidence
State's presentation of witness's testimony, which identified defendant as the
second shooter, which State allegedly withheld from defense, did not violate
Brady, Brady addressed issues of pretrial discovery, and witness's trial testimony
did not include exculpatory evidence.

20

Criminal Law

Preferability of raising effectiveness issue on post­

conviction motion
As a general rule, a claim of ineffective assistance is more properly raised in an
application for post conviction relief (PCR) in the trial court than by appeal; this is
because PCR creates the opportunity for a full evidentiary hearing. U.S.C.A.
Const.Amend. 6; LSA-C.Cr.P. art. 930.
2 Cases that cite this headnote
21

Criminal Law Cr3 Conduct of Trial in General
Criminal Law
Effective assistance
When the record is sufficient, a claim of ineffective assistance may be resolved
on direct appeal in the interest of judicial economy.
2 Cases that cite this headnote

22

Criminal Law C"5

Deficient representation and prejudice in general

Ineffective assistance claims must both identify specific acts or omissions by
counsel and state how these actions resulted in actual prejudice so severe that
the defendant was denied a fair trial; general statements and conclusory charges
will not suffice. U.S.C.A. Const.Amend. 6.

3 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

■State v. Winzer | WestlawNext

Criminal Law ©~*
23

Insufficiency of Evidence

Criminal Law 03* Judgment notwithstanding the verdict
To challenge a conviction based upon a claim of insufficiency of the evidence, a
defendant should proceed by way of urging a motion for acquittal or a motion for
post verdict judgment of acquittal. LSA-C.Cr.P. arts. 778, 821.

24

Criminal Law
Of Acquittal
Defense counsel was not authorized to file a motion for acquittal because the
defendant opted for a jury trial instead of a bench trial. LSA-C.Cr.P. art. 778.

25

Criminal Law

Impeachment or contradiction of witnesses

Defendant's conclusory allegations that witnesses made statements to detectives
denying knowing factual elements, and later made additional statements, were
insufficient to establish claim of ineffective assistance of counsel based trial
counsel's failure to impeach witnesses' during cross-examination in murder trial;
defendant failed to specify the content of witnesses' statements or how failing to
impeach the witnesses based upon these inconsistent statements would have
prejudiced his case. U.S.C.A. Const.Amend. 6.

26

Criminal Law Cr3* Examination of witnesses
Cross examination is a strategy decision and the Court of Appeal affords great
deference to a trial counsel’s tactical decisions and trial strategy.

27

Criminal Law

Impeachment or contradiction of witnesses

Defendant was not prejudiced by trial counsel's failure to impeach State's witness
during murder trial with witness's previous statements that defendant and his
brother each shot the victim two times, as required to support claim of ineffective
assistance of counsel; despite any inconsistencies in witness's recollection of
how many shots were fired, he consistently identified defendant as having shot
the victim. U.S.C.A. Const.Amend. 6.

Attorneys and Law Firms
*137 Carey J. Ellis, III, Louisiana Appellate Project, for Appellant.
Jonterrance R. Winzer, Pro se.
Robert W. Levy, District Attorney, John L. Sheehan, Penya Marzula Moses-Fields, Assistant
District Attorneys, for Appellee.
Before STEWART, CARAWAY and PITMAN, JJ.
Opinion
CARAWAY, J.
**f Jonterrance Winzer was charged by grand jury indictment and convicted as charged by
a jury with the crimes of second degree murder and armed robbery. *138 Winzer received
concurrent sentences of life imprisonment for the murder conviction and 99 years for the
armed robbery. He appeals his convictions and sentences. We affirm.

Facts
On the afternoon of April 26, 2011, police were dispatched to the home of Johnny Ray
Simmons in the Sensley's Townhouses in Farmerville, Louisiana. Upon their entrance into
Apartment 26, police discovered the body of Romon Johnson, who had been shot multiple
times. Police investigation revealed the Johnson had been shot as he sold one-half pound of
marijuana to Simmons and Nicholas Higgins. It was also learned that 24-year-old
Jonterrance Winzer, his 16-year-old brother, Lonnele Shelton, and Meagan Ward had
spent the previous night at Simmons' apartment and were present during, but not privy to,

4 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

the sale. Simmons' girlfriend, Ladrina Gray, her niece, Gerreal Gray, and Simmons' ninemonth old daughter were also in the apartment at the time of the shooting.
Police ascertained that Winzer and Simmons were childhood friends. On April 25, after a
chance meeting with Simmons, Winzer came by his friend's apartment with his girlfriend
and little brother and played dominoes late into the evening. The three ultimately spent the
night at Simmons' home.
**2 Police questioned all individuals present in the apartment at the time of the shooting.
Those interviews resulted in Winzer and his brother being implicated as the shooters. Arrest
warrants were issued for the two brothers who were ultimately apprehended and arrested in
Oklahoma City, Oklahoma.
On May 23, 2011, the Union Parish Grand Jury returned an indictment, charging Winzer
with the second degree murder and armed robbery of Johnson. The matter proceeded to
trial, and on July 25, 2013, a 12-person jury found Winzer guilty as charged on both counts.
Winzer was sentenced to concurrent sentences of life imprisonment for second degree
murder and 99 years for armed robbery, without benefit of probation, parole, or suspension
of sentence. Winzer did not file a motion to reconsider sentence, but lodged a timely appeal.
His appellate counsel raises one assignment of error and in a pro se and supplemental brief,
Winzer makes seven additional assignments or error.
Discussion
Sufficiency of the Evidence
In two pro se assignments of error1 and in Winzeris assignment of error by counsel, the
sufficiency of the evidence is challenged. Winzer argues that none of the eyewitnesses
could positively testify that Winzer **3 shot or robbed Johnson. Winzer points to
inconsistencies in the witnesses' statements and argues that Simmons' and Warden's
testimonies were made with expectations of leniency in their own prosecutions. He contends
that the witnesses' testimonies which were fraught with internal contradictions and
irreconcilable conflict *139 with physical evidence were not sufficient to support his
convictions.
At trial, the state presented the testimony of eleven witnesses, including the Coroner, Dr.
Frank Peretti, an expert in forensic pathology. Dr. Peretti testified that Johnson suffered from
three gunshot wounds: one to his right eyelid, one in the back of his neck, and one to his
right cheek. In Dr. Peretti's opinion, the right eyelid wound was the fatal shot. He recovered
a “small-caliber, non-jacketed bullets, .22's."
Both Simmons and Higgins testified. Simmons testified that he and Winzer grew up
together. The two had seen each other the day before the incident and Winzer, Ward and
Shelton spent the night at his apartment. On the morning of the incident, Higgins called
Simmons to set up a purchase of marijuana with an individual named Johnson, whom
Simmons did not know. Simmons recalled that in the late morning, Gerreal Gray arrived at
the apartment after getting out of school. She was the niece of Simmons' girlfriend, Ladrina
Gray, who also lived in the apartment with the couple's nine-month old baby. Higgins also
arrived.
Near lunchtime, Simmons, Winzer, Shelton and Higgins left the residence to obtain food for
everyone. Upon their return, Simmons testified that he and Higgins discussed the marijuana
purchase and pooled $310. **4 Simmons stated that although the two were originally going
to Johnson’s residence, ultimately Johnson came to Simmons’ home. After entering the
apartment, Johnson went to the kitchen to join Simmons and Higgins. According to
Simmons, it was Higgins who gave Johnson the money for the one-half pound of marijuana
contained in a plastic bag. As Johnson counted the money, Simmons smelled the “weed” to
“see what grade I got.” Simmons claimed that immediately after the sale, he went to the
bathroom and closed the door. As he came out of the bathroom, Simmons saw Shelton
standing in front of the dishwasher in the kitchen. Simmons observed “[Shelton's] hand up
and I saw him with the pistol and he shot. That's when he shot [Johnson].”
Simmons stated that Shelton shot Johnson from behind. He saw the victim fall to the
ground. Simmons testified that he went back into the bathroom “soon as he shot [Johnson].”
Simmons testified that after he went back into the bathroom, he heard “scuffling and stuff

5 of 13

3/1/21, 3:24 PM

•State v. Winzer | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

going on.” He peeked out of the door and saw "Winzer, Shelton and Higgins by the front
door.” Simmons testified that he guessed "they were jumping on him at the time.” He heard
another shot and then everything "calmed down." Simmons testified that he “looked back
out” and saw Shelton and Higgins "moving toward the table part.” As Simmons left the
bathroom and ran upstairs, he saw Winzer “picking up the money.” Although he only "caught
a glimpse” of Winzer, he was “arm distance” from him and "went right by him” as he ran up
the stairs. Simmons recalled that he heard what sounded “like two more gun shots” while
upstairs. Simmons also recalled hearing a knock at **5 the front door and "running up my
steps.” He feared for the safety of his girlfriend and daughter and came out of the bedroom.
He saw Higgins, Shelton and Winzer “running out the door at the time.” Simmons stated
that he then came downstairs and opened the screen door for police. He saw Johnson
"laying down there,” and the bag of money and marijuana were gone.
On cross-examination, Simmons admitted that he pled guilty to accessory after the fact to
second degree murder and armed robbery. He also acknowledged that he initially told the
police he was upstairs the entire time and did not see *140 who shot Johnson but later gave
a second statement in which he admitted being downstairs. He also stated that Winzer and
Shelton had no part of the marijuana sale.
Higgins testified that after he got out of classes about 11:15 a.m. on April 26, 2011, he
walked to Simmons' apartment. When he got there, he and Simmons “started negotiating
about some marijuana” they were going to buy from Higgins' friend Johnson. Higgins
corroborated that he, Simmons, Winzer and Shelton got food for everyone in the apartment.
They traveled in Winzerts black truck. He testified that he had never seen Winzer or
Shelton before that day. He also stated that as they ate lunch, he and Simmons discussed
the drug deal in the kitchen. As they did so, Johnson called Higgins and told him he was on
his way to Simmons' apartment. When Johnson knocked on the door, Higgins let him in and
the two walked into the kitchen area. According to Higgins, Johnson pulled out the seven
ounces of marijuana packaged in a plastic bag. Johnson placed the **6 marijuana on the
counter and Higgins gave him the money. Higgins testified that as Johnson counted the
money, Shelton came behind him and shot him once. Johnson fell down and Higgins “went
up to Lonnele Shelton,” and “tried to take the gun from him.”
Higgins testified that as the two were "wrestling over the gun,” he “slipped down” and
Winzer “came over there with a mop stick,” and "started beating me with it.” Higgins recalled
that the three were in the kitchen entrance during these events. Higgins testified that Winzer
pulled him toward the kitchen area and Shelton “came through and hit me with the gun.”
Shelton told Higgins to be quiet and not move. Eventually Shelton made him “get up and
move” near a table. Higgins testified that Shelton held him at gunpoint. During these events,
Higgins heard Winzer state, “he's still moving.” Higgins stated that he saw Winzer get “the
gun from his brother," and "went and shot [Romon Johnson] two more times.” Shelton
remained in Higgins' "eyesight” and stated he knew Shelton did not shoot Johnson. He did
not see where Winzer shot Johnson. Higgins testified that after Winzer shot Johnson, “he
gave the gun back to his little brother, Lonnele Shelton." Shelton held Higgins at gunpoint,
"talking about what he going to do with me.” Higgins recalled seeing Shelton picking up the
money, but he did not see anyone pick up the marijuana. Higgins remembered that the two
brothers discussed what they were going to do with Johnson's body.
Higgins testified that someone came to the front door and Winzer and Shelton ran upstairs.
It was then that Higgins ran outside and informed **7 Johnson's family that he had been
shot. He went back to Simmons' apartment with Johnson's brother and mother. When he got
back to the apartment, Winzer, Shelton and Warden were gone. The money and marijuana
were also gone. Higgins suffered a nose injury and swelling from being hit with the gun and
broom handle.
On cross-examination, Higgins admitted that he initially told police that after the first shot, he
blacked out. He explained that he meant he was “scared a lot," by seeing "somebody die
right in front of your eyes.” He did not believe that those feelings affected what he saw.
Higgins admitted that in 2012, he pled guilty to attempted possession of marijuana.
Gearrel Gray testified that she was in the apartment at the time of the incident. She recalled
that as she entered the apartment, Winzer, Shelton and Warden were seated at a table.
Higgins also arrived at the apartment about five minutes after she *141 got there. Gray

6 of 13

3/1/21, 3:24 PM

State v. Winzer | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

testified that she ate her lunch on a small couch. She stated that Higgins was in the kitchen
"counting money” and she heard him “call somebody up on the phone telling him how to get
to the apartment.” Johnson came to the apartment and went into the kitchen with Higgins.
She heard and saw nothing of what transpired between the two men until she heard two
gunshots "back towards the kitchen.” She got behind the couch and observed what she saw
by looking around the couch. Gray did not see who fired the shots, but turned around to see
"the younger one” fighting Higgins. She thought that Higgins was "trying to fight the gun out
his hand while he's beating him up." Gray testified that she heard Shelton tell Higgins that he
talked too much. **8 Higgins was “hollering and kicking both of them." After that she heard
two or three more gunshots and Shelton instruct Winzer to “get the money.” Gray also heard
Shelton and Winzer discuss where they were going to take the body. Gray testified that she
never saw a gun. She stated that when somebody knocked on the door, Shelton and
Winzer ran upstairs and Higgins ran out of the house. Thereafter, Gray stated that Shelton
and Winzer also ran out of the house with warden.2
On cross-examination, Gray confirmed that she did not see who fired the two gunshots and
did not see any marijuana or money.
Warden corroborated the events leading up to the shooting. She witnessed Johnson enter
the apartment and go into the kitchen. She saw only Higgins in the kitchen with Johnson and
did not hear anything they said. She “knew what they were doing” but did not see marijuana
or money, warden testified that Higgins and Johnson were standing very close to one
another. As she sat at the dining room table eating, Warden heard gunshots; she did not see
who fired them. According to Warden, at the time of the gunshots, Winzer and Shelton were
standing “around the kitchen door area." Johnson was "around the counter part.” After she
heard the shot, Warden got down on the floor in front of the large couch. She then heard
"tussling, the moving around.” Warden testified that it was “Jonterrance and Lonnele and
Nick” involved in the tussling around the front door area. Warden stated that the three
"wound up at the table that I was originally sitting at." **9 Higgins was on one side and
Winzer and Shelton were on the other. She heard somebody yelling at Higgins to "shut up
and sit down." Warden recalled Winzer saying that “he's still moving,” and then she heard
more gunshots. She did not see who fired the shots. She saw Shelton holding a very small
handgun toward Higgins. She had seen Winzer holding the gun prior to that day. Warden
testified that she heard Winzer and Shelton “trying to figure out what to do with the body."
Warden recalled that Winzer and Shelton went "upstairs for a while,” when there was a
knock at the door. At that time, Higgins "ran out the door.” Winzer and Shelton then came
downstairs and yelled at her to follow them. The three got into the truck and Winzer drove.
Warden sat in the passenger seat and Shelton was in the back. The three traveled toward
Bernice, Louisiana, and made a detour on *142 a dirt road. Warden heard Shelton and
Winzer discuss what happened. Winzer said that Johnson "must've had an angel watching
over him because it took more than one shot.” Warden saw that Winzer had money
"popping out his pocket." She had given him $20 or $30 the night before; she did not know
how much he had left. Winzer and Shelton discussed the fact that Shelton had "missed
Nick." The brothers dropped Warden off at her apartment; this was the last time she saw
either of them.
On cross-examination, Warden testified that she did not "really” change her statements to
police, although she "added some that I didn't say the very first time." She admitted pleading
guilty to accessory after the fact to second degree murder, armed robbery and resisting an
officer, and was **10 awaiting sentencing. Warden admitted that the only person she saw
with a gun in his hand was Shelton.
Police testimony showed that the Farmerville Police Department was dispatched to
Simmons' apartment around 2:00 p.m. The scene was photographed and evidence
collected, but no money, handguns or marijuana were found, except a small bag of
marijuana recovered from a drawer in the kitchen. The black truck was later found and
searched but it did not contain the gun, the marijuana or the money. Police received an
anonymous tip that Winzer and Shelton were possibly in Oklahoma City, where they were
subsequently arrested and extradited to Louisiana.
Winzer invoked his Fifth Amendment right to not testify. The defense did not present any
witnesses.

7 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

When issues are raised on appeal, both as to the sufficiency of evidence and as to one or
more trial errors, the reviewing court should first determine the sufficiency of the evidence.
State v. Lewis, 48,373 (La.App.2d Cir.9/25/13), 125 So.3d 482. The standard of appellate
review for a sufficiency of the evidence claim is whether, after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime proven beyond a reasonable doubt. Jackson v. Virginia, 443
U.S. 307, 319, 99 S.Ct. 2781,61 L.Ed.2d 560 (1979); State v. Tate, 01-1658 (La.5/20/03),
851 So.2d 921, cert, denied, 541 U.S. 905, 124 S.Ct. 1604, 158 L.Ed.2d 248 (2004); State
v. Murray, 36,137 (La.App.2d Cir.8/29/02), 827 So.2d 488, writ denied, 02-2634
(La.9/05/03), 852 So.2d 1020.
1

2

**11 Evidence may be direct or circumstantial. Direct evidence provides proof of

the existence of a fact, for example, a witness's testimony that he saw or heard something.
State v. Lilly, 468 So.2d 1154 (La.1985). Circumstantial evidence provides proof of collateral
facts and circumstances, from which the existence of the main fact may be inferred
according to reason and common experience. Id. When the direct evidence is thus viewed,
the facts established by the direct evidence and interned from the circumstances established
by the evidence must be sufficient for a rational trier of fact to conclude beyond a reasonable
doubt that the defendant was guilty of every essential element of the crime. State v. Sutton,
436 So.2d 471 (La.1983); Sfafe v. Speed, 43,786 (La.App.2d Cir.1/14/09), 2 So.3d 582, writ
denied, 09-0372 (La.11/6/09), 21 So.3d 299.
Winzer was charged with second degree murder, which is defined by La. R.S. 14:30.1 (A)(1)
as the killing of a human being when the offender has a specific intent to kill or to inflict great
bodily harm. He was also charged with armed robbery, defined as the taking of anything of
value belonging to another from the person of another or that is in the immediate *143
control of another, by use of force or intimidation, while armed with a dangerous weapon.
La. R.S. 14:64.
3

Specific intent is the state of mind that exists when the circumstances indicate that

the offender actively desired the prescribed criminal consequences to follow his act or his
failure to act. La. R.S. 14:10(1). Specific intent to kill can be inferred from the intentional use
of a deadly **12 weapon such as a knife or a gun. State v. Fields, 42,761 (La.App.2d
Cir. 1/9/08), 973 So.2d 973, writ denied, 08-0469 (La.9/26/08), 992 So.2d 983.
The appellate court does not assess the credibility of witnesses or reweigh evidence. State
v. Smith, 94-3116 (La.10/16/95), 661 So.2d442. It is the function of the trier of fact to
assess credibility and resolve conflicting testimony. State v. Thomas, 609 So.2d 1078
(La.App. 2d Cir. 1992), writ denied, 617 So.2d 905 (La.1993); Sfafe v. Bonnett, 524 So.2d
932 (La.App. 2d Cir. 1988), writ denied, 532 So.2d 148 (La.1988). The trier of fact senses
first hand the testimony, and unless the fact finder's assessment of believability is without
any rational basis, it should not be disturbed by a reviewing court. State v. Mussall, 523
So.2d 1305 (La.1988); State v. Combs, 600 So.2d 751 (La.App. 2d Cir.1992), writ denied,
604 So.2d 973 (La. 1992). A reviewing court accords great deference to a jury's decision to
accept or reject the testimony of a witness in whole or in part. Sfafe v. Eason, 43,788
(La.App.2d Cir.2/25/09), 3 So.3d 685, writ denied, 09-0725 (La.12/11/09), 23 So.3d 913;
State v. Hill, 42,025 (La.App.2d Cir.5/9/07), 956 So.2d 758, writ denied, 07-1209
(La.12/14/07), 970 So.2d 529. Where there is conflicting testimony about factual matters,
the resolution of which depends upon a determination of the credibility of the witnesses, the
matter is one of the weight of the evidence, not its sufficiency. Slate v. Allen, 36,180
(La.App.2d Cir.9/18/02), 828 So.2d 622, writs denied, 02-2595 (La.3/28/03), 840 So.2d 566,
02-2997 (La.6/27/03), 847 So.2d 1255, cert, denied, 540 U.S. 1185, 124 S.Ct. 1404, 158
L.Ed.2d 90 (2004).
4

5

’*13 When a witness is impeached, the jury, as the trier of fact, is presented

with evidence it may consider and weigh in determining the credibility, or believability of the
witness. Simply because the witness may have been impeached by prior inconsistent
statements does not mean that the jury is prohibited from believing anything said by the
witness. The inconsistencies in the witness's statements are one of any number of factors
the jury weighs in determining whether or not to believe a witness’s trial testimony. State v.
Williams, 35,911 (La.App.2d Cir.9/18/02), 828 So.2d 180; State v. Dunn, 30,346 (La.App.2d
Cir.2/25/98), 708 So.2d 512.

8 of 13

3/1/21, 3:24 PM

State v. Winzer | WestlawNext

https://nextcorrectionaI.westlaw.com/Document/Ilf3548944eff...

Moreover, in the absence of internal contradiction or irreconcilable conflict with physical
evidence, one witness's testimony, if believed by the trier of fact, is sufficient support for a
requisite factual conclusion. State v. Wiltcher, 41,981 (La.App.2d Cir.5/9/07), 956 So.2d 769;
State V. Surd, 40,480 (La.App.2d Cir.1/27/06), 921 So.2d 219, writ denied, 06-1083
(La.11/9/06), 941 So.2d 35.
7
8 The basis of WinzeTs argument is the reliability of Simmons', Warden's and
Higgins' testimony considering the inconsistent statements made by each to police and/or
expected leniency in sentencing for their own convictions. Winzer also argues that no
eyewitness was able to identify him as Johnson's shooter or robber. Nevertheless, the
record shows that upon defense cross-examination, Simmons, Warden and Higgins
admitted making inconsistent statements to police. Additionally, '144 on cross-examination,
both Simmons and Warden admitted pleading guilty to accessory after the fact to second
degree murder and armed robbery as well as their impending "14 sentencing for each
offense. Thus, the jury was made aware of these facts and accepted the witnesses'
testimony as credible. Such weight and credibility determinations remain within the jury's
discretion and will not be disturbed on appeal. Gray, Warden and Hamilton gave
independent accounts of the event. Considering that the testimony substantially
corroborated the accounts of Higgins and Simmons, any minor differences in each individual
witness's testimony was not so internally contradictory so as to undermine the totality of their
testimony. Higgins' return to the scene after the events further validates his testimony. Nor
did the testimony create irreconcilable conflict with physical evidence as it related to the
proof of elements of the crime.
If believed, this testimony along with the other evidence establishes that two sets of shots
were fired at Johnson. Simmons and Higgins witnessed Shelton inflict the first shot or shots,
which caused Johnson to fall to the ground. Corroborating that evidence was Gray's
testimony that she saw Shelton and Higgins tussle for control of the gun. Warden and
Higgins also substantiated the circumstances of the fight. During the ensuing scuffle,
Warden and Higgins identified Winzer as stating, "he's still moving." Thereafter, Higgins
saw Winzer grab Shelton's gun and shoot in the direction of Johnson's body. It was after this
incident that Higgins, Warden and Gray heard Winzer and Shelton discuss what to do with
Johnson's body. Winzer bragged afterwards that it took more than one shot to kill Johnson.
Although Higgins recalled that it was Shelton who took the money, Simmons stated that he
saw Winzer picking up the money involved "15 in the drug transaction and Gray heard
Shelton tell Winzer to pick up the money. No drugs or money relating to the sale were found
by police in the apartment and Warden witnessed Winzer with money bulging out of his
pockets as the three fled the crime scene.
9 This direct and circumstantial evidence is sufficient to convict Winzer of the charged
offenses. From Higgins' eyewitness account of Winzer grabbing the gun from his brother
after commenting that Johnson was still moving, the jury could have reasonably inferred that
it was Winzer who inflicted the fatal shot to Johnson. Likewise, even with the conflicting
accounts from the scene of the shooting regarding who took the money from Johnson, the
jury reasonably accepted Simmons' account of Winzer taking the drug money after killing
Johnson, considering Warden's corroborating testimony that Winzer left the scene with
money hanging out of his pockets.3 After viewing this evidence in the light most favorable to
the state, any rational trier of fact could have found Winzer guilty of the essential elements
of armed robbery beyond a reasonable ‘145 doubt. These assignments of error have no
merit.
Motions
10
11 I n his second and third pro se and supplemental assignments of error, Winzer
argues that the trial court erred in failing to rule on or grant a "16 contradictory hearing on
his motion to quash and continuance. Winzer refers only to jurisprudence regarding the
motion to quash and does not provide any particularized arguments. The record reflects that
a pro se motion to quash was filed on June 6, 2012. In it Winzer made a cursory argument
that he had been illegally arrested and that "prejudicial legalism and racism played a large
and controlling role in the warrant and arrest"; the majority of the motion questioned the
legality of the indictment. The record does not reflect a ruling on the motion to quash and
Winzer proceeded to trial without calling attention to the lack of ruling. Nor did he raise any
issue relating to the arrest warrant at trial. It is well established that motions pending at the

9 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. Winzer | WestlawNext

commencement of trial are waived when the defendant proceeds to trial without raising the
issue that the motions were not ruled upon. State v. Holmes, 06-2988 (La.12/2/08), 5 So.3d
42, cert, denied, 558 U.S. 932,130 S.Ct. 70,175 L.Ed.2d 233 (2009). This includes a
motion to quash. State v. Logan, 45,136 (La.App.2d Cir.4/14/10), 34 So.3d 528, writ denied,
10-1099 (La.11/5/10), 50 So.3d 812; State v. Carter, 42,894 (La.App.2d Cir.1/9/08), 974
So.2d 181, writ denied, 08-0499 (La.11/14/08), 996 So.2d 1086.
12

Moreover, a trial court is not required to entertain motions filed by a defendant who is

represented by counsel. While an indigent defendant has a right to counsel as well as the
opposite right to represent himself, he has no constitutional right to be both represented and
representative. Holmes, supra. For these reasons, these assignments of error have no
merit.
13

**77 In his supplemental brief, Winzer argues that the trial court erred in denying a

continuance of the trial. The record shows that on June 25, 2013, the court heard a defense
motion for continuance on the grounds that the state had provided “voluminous” discovery
responses two weeks prior to the hearing for which the defense needed additional time to
review. After reviewing the discovery response, the trial court denied the motion for
continuance finding that he information was not 'that voluminous” and did not contain
“significantly new information.” The court concluded that the filing of the discovery was
“actually more than 30 days' prior to trial and that a previous continuance had been granted
the defense. Voir dire began on July 23, 2013.
The decision to grant or deny a motion for continuance rests within the sound discretion of
the trial court, and a reviewing court will not disturb a trial court's determination absent a
clear abuse of discretion. La.C.Cr.P. art. 712; State v. Harris, 01-2730 (La.1/19/05), 892
So.2d 1238, cert, denied, 546 U.S. 848, 126 S.Ct. 102, 163 L.Ed.2d 116 (2005); State v.
Maffett, 47,430 (La.App.2d Cir.9/26/12), 105 So.3d 138, writ denied, 12-2464 (La.4/12/13),
111 So.3d 1017.
14 Even when an abuse of discretion is shown, a conviction will not be reversed based
upon the denial of a continuance absent a showing of specific prejudice. Harris, supra;
Maffett, supra; State v. Hill, 46,050 (La.App.2d Cir.4/20/11), 64 So.3d 801, writ denied,
11-1078 (La.11/14/11), 75 So.3d 940.
**18 We find no abuse of discretion in the trial court's denial of Winzerts request for
continuance. The court reviewed the discovery *146 responses and concluded that they
were not so voluminous or substantial that counsel would be unable to adequately prepare
for trial. Nor has Winzer alleged specific prejudice to his case by the denial of the motion.
For these reasons, this assignment of error has no merit.
Arrest Probable Cause
16 In his fourth pro se supplemental assignment of error, Winzer raises the issue
15
of sufficient of probable cause relating to his arrest. He argues that the magistrate issued the
arrest warrant based upon inconsistent testimony. As noted above, Winzer waived his right
to contest the legality of the arrest warrant. Moreover, in his motion to quash, he argued that
the arrest was illegal due to racism and prejudice. A new ground for objection cannot be
presented for the first time on appeal. La.C.Cr.P. 841; Stale v. Cressy, 440 So.2d 141
(La.1983); State v. Harris, 414 So.2d 325 (La.1982); State v. Davis, 357 So.2d 1125
(La.1978). In fact, it has been held that a defendant may not raise new grounds for
suppressing evidence on appeal that he did not raise at the trial court in a motion to
suppress. State v. Barnett, 12-816 (La.App.5th Cir.5/16/13), 118 So.3d 1156; State v.
Carter, 10-973 (La.App.5th Cir.8/30/11), 75 So.3d 1. On these grounds, Winzerts argument
is without merit.
Brady Violation
17
18
19

Winzer argues that Higgins'trial testimony “put the whole case in such a

different light as to undermine confidence in the verdict.” He **19 contends that his
testimony which identified Shelton as the first shooter and him as the second shooter "was
withheld from defense,” and undermined the outcome of the trial in violation of Brady v.
Maryland, 373 U.S. 83, 83 S.Ct. 1194,10 L.Ed.2d 215 (1963). When the defendant requests
it, the state must produce evidence that is favorable to the accused, if that evidence is
material to guilt or innocence. Brady supra. This rule also applies to evidence which

10 of 13

3/1/21, 3:24 PM

i

State v. Winzer | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

impeaches the testimony of a witness when the credibility of that witness may be
determinative of guilt or innocence. State v. Bright, 02-2793 (La.5/25/04), 875 So.2d 37.
We find no merit to Winzer's Brady claim. Brady addresses issues of pretrial discovery.
Moreover, Higgins' trial testimony did not include exculpatory evidence. Thus, this portion of
Winzer's argument is without merit.
Ineffective Assistance of Counsel
Winzer also specifies three areas in which he believes his trial counsel's behavior was
ineffective. These include a failure to file a motion for acquittal or a motion for post verdict
judgment of acquittal; a failure to impeach Higgins for making two conflicting statements that
both Shelton and Higgins shot Johnson twice; and a failure to impeach Simmons and
Warden for giving conflicting statements.
21 As a general rule, a claim of ineffective assistance is more properly raised in an
20
application for post conviction relief ("PCR”) in the trial court than by appeal. This is because
PCR creates the opportunity for a full evidentiary hearing under La.C.Cr.P. art. 930. **20
State v. Cook, 48,355 (La.App.2d Cir.11/20/13), 127 So.3d 992, writ denied, 13-3000
(La.5/30/14), 140 So.3d 1174; State v. Ellis, 42,520 (La.App.2d Cir.9/26/07), 966 So.2d 139,
writ denied, 07-2190 (La.4/4/08), 978 So.2d 325. However, when the record is sufficient,
this issue may be resolved on direct appeal in the interest of judicial economy. State v.
Ratcliff, 416 So.2d 528 (La. 1982); Cook, supra. Therefore, in the interest of judicial
economy, those portions of Winzer's claims of ineffective assistance *147 for which the
record is sufficient will be addressed on appeal.
The right of a defendant in a criminal proceeding to the effective assistance of counsel is
mandated by the Sixth Amendment to the U.S. Constitution. This requires a showing that
counsel made errors so serious that he was not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). The relevant inquiry is whether counsel's representation fell
below the standard of reasonableness and competency as required by prevailing
professional standards demanded for attorneys in criminal cases. Id. The assessment of an
attorney's performance requires that his conduct be evaluated from counsel's perspective at
the time of the occurrence. A reviewing court must give great deference to the trial court's
judgment, tactical decisions and trial strategy. There is a strong presumption that trial
counsel has exercised reasonable professional judgment. Cook, supra; State v. Tilmon,
38,003 (La.App.2d Cir.4/14/04), 870 So.2d 607, writ denied, 04-2011 (La.12/17/04), 888
So.2d 866.
**21 Once the attorney's performance is found to have been deficient, the defendant must
show that counsel's deficient performance prejudiced his defense. This element requires a
showing that the errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable. Strickland, supra. The defendant must prove the deficient
performance caused him an actual prejudice so severe that, but for his counsel’s deficient
performance, there is a reasonable probability that the outcome of the proceedings would
have been different. Strickland, supra; Cook, supra.
22

Ineffective assistance claims must both identify specific acts or omissions by counsel

and state how these actions resulted in actual prejudice so severe that the defendant was
denied a fair trial; general statements and condusory charges will not suffice. Id.
23

To challenge a conviction based upon a claim of insufficiency of the evidence, a

defendant should proceed by way of urging a motion for acquittal or a motion for post verdict
judgment of acquittal. La.C.Cr.P. art. 778; La.C.Cr.P. art. 821. Motion for acquittal is not
authorized in a jury trial of a criminal matter. La.C.Cr.P. art. 778. The defendant may move
for a post verdict judgment of acquittal following the verdict; a motion for a post verdict
judgment of acquittal must be made and disposed of before sentence. La.C.Cr.P. art.
821(A).
24

In this matter, defense counsel was not authorized to file a motion for acquittal

because the defendant opted for a jury trial instead of a bench trial. La.C.Cr.P. art. 778.
Moreover, although counsel did not file a motion for post verdict judgment of acquittal, we
have reviewed the sufficiency of the **22 evidence in connection with the first assignment of
error and have concluded the evidence was sufficient for conviction. When the substantive

11 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v. .Winzer | WestlawNext

issue that an attorney has not raised has no merit, then the claim that the attorney was
ineffective for failing to raise the issue also has no merit. State v. Francois, 13-616 (La.App.
5th Cir.1/31/14), 134 So.3d 42; State v. Williams, 613 So.2d 252 (La.App. 1st Cir. 1992).
Accordingly, this portion of Winzer's argument is without merit.
25

26 Winzer also argues that his trial counsel was deficient because he failed to

impeach Simmons, Warden and Higgins with prior inconsistent statements allegedly made
by them to police. The basis of Winzer’s claims regarding Warden and *148 Simmons is
that "both made statements to detectives denying knowing factual elements," and later
made "additional statements." Cross examination is a strategy decision and this court
affords great deference to a trial counsel's tactical decisions and trial strategy. State v.
Moore, 48,769 (La.App.2d Cir.2/26/14), 134 So.3d 1265. Winzer fails to specify the content
of Simmons' and Warden's statements or how failing to impeach the witnesses based upon
these inconsistent statements would have prejudiced his case. Such conclusory allegations
are insufficient to establish a claim of ineffective assistance of counsel.
27 Winzer’s argument that trial counsel’s failure to impeach Higgins with his alleged
previous statements that each brother shot Johnson two times “undermined confidence in
the outcome of the trial,” is also unsupported by the record. Despite any inconsistencies in
the witness's recollection of how many shots were fired, he consistently identified Winzer
**23 as having shot Johnson. Thus, Winzer has demonstrated no prejudice in counsel's
failure to elicit the subject information on cross-examination.
Moreover, because the overwhelming testimony of the eyewitnesses identified Winzer as a
knowing and active participant, who aided and abetted in the commission of the crimes, any
failure by counsel to cross-examine the eyewitnesses about specific alleged inconsistencies
in their identification of the shooter or description of the number of gunshots involved in the
event, fails to raise a reasonable probability sufficient to undermine confidence in the
outcome of the trial. Thus, Winzer’s arguments are without merit.
Winzer's convictions and sentences are affirmed.
CONVICTIONS AND SENTENCES AFFIRMED.
All Citations
151 So.3d 135, 49,316 (La.App. 2 Cir. 10/8/14)
Footnotes
1

In his supplemental assignment of error No. 1, Winzer also argues that his
appellate counsel was unable to "sufficiently challenge defendant's Fourteenth
Amendment Due Process violation by State” due to an incomplete transcript
and this court's determination that no further extension of the return day would
be considered after January 26, 2014. The record shows that Winzer's trial
counsel designated “the entire transcript of each hearing herein and all of the
pleadings” fo’r inclusion in the appellate record for review. The subject
extensions certified that the entirety of this information be contained in the
record. Because the record shows that all designated information was filed
into the record on February 28, 2014 and Winzer’s counsel filed his brief on
May 5, 2014, Winzer's argument that counsel was without portions of the
transcript is without merit.

2

JaMarkus Hamilton testified that as he rang Simmons' doorbell on April 26,
2011, Higgins ran out telling them to go; Higgins' lip was bloody. Hamilton and
another man hid behind the building and saw two males and a female exit the
apartment. He was not able to identify Winzer as one of those males.
Hamilton further testified that the three individuals got into a black truck and
headed west after backing into the building and damaging the bumper.

3

Regardless of which brother fired the fatal blow or took the money from
Johnson, the evidence presented by the state would also have been sufficient
to convict Winzer as a principal to both crimes considering the consistent
eyewitness accounts of his active participation in the events leading to

12 of 13

3/1/21, 3:24 PM

https://nextcorrectional.westlaw.com/Document/Ilf3548944eff...

State v.^Vinzer | WestlawNext

Johnson's death and robbery. All persons concerned in the commission of a
crime, whether present or absent, and whether they directly commit the act
constituting the offense, aid and abet in its commission, or directly or indirectly
counsel or procure another to commit the crime, are principals. La. R.S. 14:24.
Those persons who knowingly participate in the planning or execution of a
crime are principals. State v. Mason, 47,642 (La.App.2d Cir.1/16/13), 109
So.3d 429, writs denied, 13-0423 (La.7/31/13), 118 So.3d 1116,13-0300
(La.9/13/13), 120 So.3d 279.

End of
Document

WestlawNext. © 2021 Thomson Reuters

13 of 13

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

!@l THOMSON ROUTERS
Thomson Reuters iS:tK>f'providing legal advice

3/1/21, 3:24 PM

